fifi59
IN THE
^up'eme Court, U.s"
FILED

SUPREME COURT OF THE UNITED STATES

NOV 18 2020
OFFICE OFTHP m efr

EDDIE ASHLEY

— PETITIONER

(Your Name)
vs.

CHRISTIAN PFEIFFER, Warden
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

THE LOS ANGELES SJPERIOR COJRT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

EDDIE ASHLEY
(Your Name)
KVSP B5-205/P.O.Box 5102
(Address)
Delano, Ca 93216
(City,. State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED

Does Petitioner had a Federal Due Process Right to the Prohibition
of the Imposition of Two Different Sentencing Enhancements, per the
California Supreme Court's own Authority?

r

LIST OF PARTIES

P? All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A

PETITIONER'S MOTION TO CORRECT SENTENCE

APPENDIX B

THE LOS ANGLES SJPERIOR COJRT DENIAL DECISION

APPENDIX C PETITIONER'S WRIT OF MANDATE

APPENDIX D THE SECOND APPELLATE DISTRICT COJRT DENIAL DECISION

APPENDIX E PETITIONER'S PETITION FOR REVIEW

APPENDIX F

SJPREME CO JRT"S SJMMARY DENIAL ORDER

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

People v. Lee (2012) 61 Cal.4th 416; 189 Cal.Rptr.3d 166

XII

People. Rodriguez (2009) 47 Cal.4th 510; 98 Cal.Rptr.3d 108

XII

People, v Williams (2007) 156 Cal.App.4th 898; 67 Cal.Rptr.3d 516

XII

STATUTES AND RULES
Fourteenth Amendment
California Penal Code § 1170.1

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ J^xFor cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Los Angeles Superior
appears at Appendix_B__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
F? is unpublished.
1.

court

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

For cases from state courts:
The date on which the highest state court decided my case was Oct. 28, 2020
A copy of that decision appears at Appendix _F____
[ ] A timely petition for rehearing wras thereafter denied on the following date:
-----------------------------------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fourteenth Amendment -Right to Due Process of Law
California Penal Code § 1170.1(a) -Prohibition Against the Imposition
of Two Enhancements

STATEMENT OF THE CASE
In People v. Rodriguez (2009) 47 Cal.4th 510; 98 Cal.Rptr.3d 108; 213 P.3d
647; and, People v. Lee (2015) 61 Cal.4th 416; 189 Cal.Rptr.3d 166; 351 P.3d
295, the California Supreme Court had decided that PC § 1170.1(a) had prohib­
ited the imposition of two different sentencing enhancements. Petitioner
had presented to the Superior Court that Petitioner's plea agreement had
consisted of an illegal sentence, i.e., Petitioner was given PC § 12022.7 Firearm
Enhancement & a 186.22 Gang Enhancement. So, Petitioner requested for the Superior
Courto correct the unauthorized sentence (See People v. Williams (2007) 156 Cal.App.
4th 898; 67 Cal.Rptr.3d 516); In which, the Superior Court had denied Petitioner's
Due Process Right to a correction on the basis of a contrary decision of the Califor­
nia Supreme Court. For which, the California Supreme Court refused to address or
remand back to the lower Court for due consideration of Petitioner's Due Process
Rights (14th Amendment) for relief.

REASONS FOR GRANTING THE PETITION

Petitioner requests discretionary jurisdiction from the J.S. Supreme Court on the
basis that Petitioner's Federal Due Process to the fair application of law be applied
justly to Petitioner. Especially, when the California Supreme Court already decided
the prohibition effect of applying two differing sentencing enhancements, but reluct­
antly deciding not to order the Lower Court to respect Petitioner's Federal Rights
to resentencing. So, Petitioner requests the J.S. Supreme Court remands with instruct­
ions to the Supreme Court to enforce the law in accordance to Petitioner's Due Proces
Rights for relief.

CONCLUSION

i

The petition, for a writ of certiorari should be granted.

Respectfully submitted,
Eddie Ashley
i

Date:i November 16, 2020
I
i

